<html>
<title> - TRAINING OF IRAQI SECURITY FORCES (ISF) AND EMPLOYMENT OF TRANSITION TEAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-56]
 
 TRAINING OF IRAQI SECURITY FORCES (ISF) AND EMPLOYMENT OF TRANSITION 
                                 TEAMS

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              MAY 22, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
38-110 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                 MARTY MEEHAN, Massachusetts, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
VIC SNYDER, Arkansas                 ROSCOE G. BARTLETT, Maryland
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           PHIL GINGREY, Georgia
SUSAN A. DAVIS, California           K. MICHAEL CONAWAY, Texas
JIM COOPER, Tennessee                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                 John Kruse, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                     Sasha Rogers, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, May 22, 2007, Training of Iraqi Security Forces (ISF) 
  and Employment of Transition Teams.............................     1

Appendix:

Tuesday, May 22, 2007............................................    29
                              ----------                              

                         TUESDAY, MAY 22, 2007
 TRAINING OF IRAQI SECURITY FORCES (ISF) AND EMPLOYMENT OF TRANSITION 
                                 TEAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommitee...............     3
Meehan, Hon. Marty, a Representative from Massachusetts, 
  Chairman, Oversight and Investigations Subcommittee............     1

                               WITNESSES

Jones, Brig. Gen. Michael, Deputy Director for Politico-Military 
  Affairs (Middle East), Joint Staff.............................     4
Velz, Peter, Office of the Assistant Secretary of Defense for 
  International Security Affairs (Middle East), Office of the 
  Secretary of Defense...........................................     4

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    35
    Meehan, Hon. Marty...........................................    33

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Andrews..................................................    43
    Mr. Meehan...................................................    41
 TRAINING OF IRAQI SECURITY FORCES (ISF) AND EMPLOYMENT OF TRANSITION 
                                 TEAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                             Washington, DC, Tuesday, May 22, 2007.
    The subcommittee met, pursuant to call, at 9:07 a.m. in 
room 2119, Rayburn House Office Building, Hon. Marty Meehan 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MARTY MEEHAN, A REPRESENTATIVE FROM 
     MASSACHUSETTS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS 
                          SUBCOMMITTEE

    Mr. Meehan. The Subcommittee on Oversight and 
Investigations will come to order. I want to welcome our 
witnesses.
    Today we are going to continue our examination of the most 
pressing issue facing the country: the war in Iraq. In the past 
few weeks the subcommittee has looked into the manning, 
training and equipping of the Iraqi Security Forces and the 
United States military and police transition teams.
    In today's hearing we will receive testimony from witnesses 
on the command relationships and responsibilities of the Multi-
National Corps-Iraq and the Iraqi Assistance Group. 
Specifically we will discuss employment and transition teams 
with the Iraqi Security Forces. Additionally, we will hear 
about the Multi-National Security Assistance Team in Iraq 
called Multi-National Security Transition Command (MNSTC-I) and 
its Civilian Police Advisory and Training Team called CPATT. 
They are charged with the training and equipping of the Iraqi 
Police Service and managing training teams for the Ministries 
of Defense and Interior. CPATT also supervises the contractors 
who are international police liaison officers and international 
police trainers working with the Iraqi local police.
    Other issues we want to address include the role that 
military and police unit readiness reporting plays in assessing 
the performance of Iraqi Security Forces. It is vitally and 
critically important to understand how this interaction and 
reporting plays in how the assessments are made as to how we 
are doing relative to the Iraqi Security Forces.
    More importantly, we want to hear about the actions 
generated by these assessments and how feedback is provided to 
Iraqi leaders. We want to hear our guests' frank appraisals of 
how the current structure for transition teams were developed 
and how future requirements are being determined and then 
communicated to the services as force providers.
    Part of the reason for this hearing is the inability of the 
subcommittee to get documents and informed answers from 
witnesses in past hearings on the Civilian Police Advisory and 
Assistant Training Team in particular, and the details of the 
command relationships in general. Many of you may be aware that 
previous witnesses and briefers have had to take numerous 
committee questions for the record. In other words, we seem to 
have a string of witnesses that can't answer questions and have 
to take questions for the record, at which time we wait for 
responses.
    You may not be aware that responses to questions on the 
record have been very slow at getting back to us, and in many 
instances there have been no responses to on-the-record 
questions. I hope that we don't have that problem today.
    Our members and the public should know, without any 
disrespect intended toward the witnesses we have today, that 
these were not the witnesses that we had asked the Department 
of Defense to hear from today. Because some of our efforts have 
been delayed or blocked, we finally requested access to 
commanders whose plans, policies, and assessment of progress 
are crucial and critical to our understanding of the effort to 
transition security responsibilities to the Iraqi Security 
Forces. They were not made available, so we asked for their 
deputies or any knowledgeable staff officer. None were made 
available and no alternatives were suggested.
    Then we asked knowledgeable staff officers from Central 
Command Headquarters in Tampa. We were told none were capable 
of providing testimony. Instead we were offered a possible 
CODEL for eight members in June, which we appreciate, but 
unfortunately we are on a time deadline here, where we would 
like to have a report by the end of June.
    I would also remind the committee that a staff delegation 
was arranged in mid-April and was then canceled.
    I just want to comment that in both the Iraq and 
Afghanistan wars, military/civilian uniformed leaders have been 
asked by Congress to explain the decisions about troop 
deployments, economic reconstruction, friendly-fire casualties, 
the training of Iraqi and Afghan forces, and in fulfilling 
their responsibility to oversee the military. We as Members of 
Congress need to assess the views of anyone in uniform, not 
just high-level officers. This new idea of limiting Congress' 
ability to get testimony from a wide range of service members 
and civilian Pentagon employees I think undermines our effort.
    We have been offered access to Lieutenant General Dempsey 
when he returns in mid-June, which we appreciate, but which 
doesn't fulfill our requirements. So for all of our sakes' I 
hope that the two witnesses today, I hope that you can help us 
with some specific questions about the contents of a critical 
document that this subcommittee has not been able to obtain, 
the Joint Campaign Plan assigned by the Commander of the Multi-
National Forces-Iraq and the Embassy as it pertains to 
developing the Iraqi Security Forces.
    MNSTC-I has an unclassified campaign plan for developing 
the ISF, and that has been provided--not been provided to us 
either.
    Today's hearing will begin with testimony from Mr. Peter 
Velz who is from the Office of the Assistant Secretary of 
Defense for International Security Affairs for the Middle East. 
He will be followed by General Michael Jones from the Joint 
Staff. He is Deputy Director for Politico-Military Affairs for 
the Middle East.
    To encourage discussion, I would like to follow the same 
less formal procedures today as we have in our previous 
sessions. I have talked to the Ranking Member and he has agreed 
again to dispense with the five-minute rule during today's 
hearing, and I would ask my colleagues to be sensitive and not 
to monopolize witnesses. I would also like to remind members of 
the subcommittee that this is an open hearing so no classified 
information will be discussed. If necessary, when we are 
finished here, we can move to a separate room for a classified 
discussion.
    Again, I welcome our witnesses. We are looking forward to 
your remarks and we will take your whole text for the record. 
We would ask you to prepare remarks fairly briefly so we can 
get to our questions.
    With that, I would like to turn to my colleague Mr. Akin, 
our Ranking Member, for any opening remarks that he may have.
    [The prepared statement of Mr. Meehan can be found in the 
Appendix on page 33.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman, for your remarks and 
your able leadership, and I also want to thank our witnesses 
for joining us today as well.
    Today we continue to build the public record of our 
investigation of the Iraqi Security Forces. The purpose of 
today's hearing is to look at the command responsibility of the 
Multi-National Corps-Iraq and the Iraq Assistance Group, IAG, 
in employing transition teams in the Multi-National Security 
Transition Command-Iraq for training and equipping the ISF.
    I am particularly interested in how the Civilian Police 
Assistance Transition Team train and equip the Iraqi Police 
Services. These are organizations that own the ISF mission. 
Their day-to-day work executes the mission of building an 
indigenous Iraqi force that we expect will stabilize Iraq and 
will ensure that Iraq has a chance to overcome its sectarian 
and ethnic divisions.
    Mr. Chairman, as we complete this investigation of ISF we 
need to return to the core issues of this investigation and 
answer some fundamental questions. First, are the Iraqi 
Security Forces we have trained ready to take the lead? We know 
how many soldiers and police we have trained, but we are less 
clear on how they are performing. Besides making the ISF 
logistically independent and improving ministerial capacity, 
what challenges remain for the ISF that the U.S. forces can 
help solve?
    On the strategic level we need to revisit whether the ISF 
are really the linchpin to securing the country. While I am 
convinced that having a competent Iraq Security Force is a 
necessary condition for stabilizing Iraq, it is certainly not 
the only condition. The political dimension is absolutely vital 
too.
    The Baghdad security plan may be a key metric for 
evaluating whether we are using ISF in a strategically sound 
way and if the ISF are performing effectively at the tactical 
level.
    I am interested in our witnesses' views on these critical 
questions and thank you again for joining us this morning. I 
yield back.
    Mr. Meehan. Thank you, Mr. Akin.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 35.]
    Mr. Meehan. I don't think that we have any testimony that 
has been provided, written testimony, to the committee. Is that 
correct?
    Mr. Velz. That is correct, sir. Yes, sir, that is correct. 
But I have a very brief statement.
    Mr. Meehan. Okay.

 STATEMENT OF PETER VELZ, OFFICE OF THE ASSISTANT SECRETARY OF 
   DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS (MIDDLE EAST), 
               OFFICE OF THE SECRETARY OF DEFENSE

    Mr. Velz. Mr. Chairman, Mr. Akin, members of the committee, 
I appreciate the opportunity to testify before you today. The 
most appropriate witness for the hearing today, as you 
mentioned, is Lieutenant General Dempsey, Commander of MNSTC-I, 
but he is not in Washington. I understand our Office of 
Legislative Affairs is working with your subcommittee to ensure 
that General Dempsey appears before your subcommittee on June 
12th. Brigadier General Jones----
    Mr. Meehan. Can I just--I just want to make sure--
Legislative Affairs has been communicating with us, I wouldn't 
say that it has been--I wouldn't say it has been a cooperative 
effort. I have sent ten official--I have never ever seen such a 
lack of responsiveness in terms of working with a committee. We 
have subpoena power, and we are going to get there, I suppose, 
but I don't want you to think that this has been a cooperative 
effort. It has been most unpleasant.
    Mr. Velz. Okay, sir. General Jones and I will answer your 
questions to the best of our ability and take questions for the 
record as appropriate.
    Mr. Meehan. Is that your opening statement?
    Mr. Velz. That is it, sir.
    Mr. Meehan. General Jones.

  STATEMENT OF BRIG. GEN. MICHAEL JONES, DEPUTY DIRECTOR FOR 
      POLITICO-MILITARY AFFAIRS (MIDDLE EAST), JOINT STAFF

    General Jones. Mr. Chairman and Congressman Akin, it is a 
pleasure to be here. Thank you for the opportunity to talk to 
you about what I believe is a very, very important issue. I 
apologize because of time, I didn't have enough time to submit 
a written statement for the record, opening remarks. However, I 
would like to thank you for your and the rest of the 
subcommittee's continued support of men and women in uniform 
and also look forward to your questions and I will do my very 
best to answer especially those issues that both of you raised 
in your opening remarks. Thanks, sir.
    Mr. Meehan. I assume, General, you probably weren't 
notified that you would be testifying until probably recently, 
my guess would be, right?
    General Jones. That is correct, sir.
    Mr. Meehan. I am shocked.
    I would like to start with one question, then reserve time 
for later--for both witnesses. How do you tell progress is 
being made on the development of the Iraqi Security Forces?
    It seems that we measure trained and equipped, but that 
really doesn't tell us whether they are on duty or whether they 
are capable, or if there are really insurgents or terrorists or 
sectarian militia. It also seems that we measure in the lead or 
operating independently, which apparently doesn't mean what we 
think it does, but it doesn't seem to me that any U.S. troops 
can be redeployed or refocused or that the overall violence in 
Iraq is going down.
    So we are really interested in are you responsible in any 
way for keeping track of how this effort is going? How do we 
measure this? What is the process? If so, how do you do that 
and to whom are you responsible? How do you make adjustments 
based on your assessments of how things are going, the progress 
that is being made, and how do you keep track of it, and why?
    General Jones. Mr. Chairman, you have highlighted a couple 
of the ways that we track and we monitor. The first, of course, 
is the basic information about trained and equipped, and that 
is forces as they go through the fundamental training or the 
basic training graduate from either academies or basic training 
units and then are provided as individually equipped soldiers 
or policemen to their units. That is kind of the manufacture, 
the building blocks, so to speak, of effectiveness.
    The second element is, as you mentioned, the Transition 
Readiness Assessment (TRA) information that actually assesses 
unit capacity to perform. These ratings in terms of what the 
capacity of the unit is vary from when the unit is being formed 
until the time when they are independent. I will mention the 
definition may be unclear for some folks; the judgment as to 
whether a unit is independent, able to be in the lead, or 
requires coalition support is in terms of what that unit is 
designed to do. If it is an infantry battalion, an infantry 
battalion is designed to operate to do certain critical tasks 
and it has internal capacity to do certain things. If that unit 
is not capable of doing all those internal things, then we 
assess it as a unit that needs coalition support in order to 
function.
    If, in fact, they can do most of those internal things but 
there are parts inside that unit that are missing--for 
instance, they might not have internal medical capacity or some 
other aspect--then they can be in the lead but not independent.
    Finally, an independent unit is one that for everything it 
is designed to do, it is capable of doing without coalition 
support. So we track that, and that is done primarily based on 
the assessment of these embedded teams, either mid-teams, 
police transition teams, special police transition teams, 
military transition teams that are embedded. That is what 
generates that TRA data. In addition to that----
    Mr. Meehan. These embedded teams, do they report to you? 
Who do they specifically report to?
    General Jones. Their information goes up to the C3 of 
Multi-National Corps, which is where that information is 
collated into the overall TRA assessment information. So their 
operational chain of command runs from the more senior teams, 
which are located in brigade or the division level, that goes 
up to Multi-National Corps and is collated there by the C3, 
which is the operations section of Multi-National Corps.
    In addition to that, each of these Iraqi units has a 
partner unit, and that is a coalition unit that partners with 
them, so that you have a parallel organization that provides 
mentoring and coaching in support to that unit. So in terms of 
their operation they are also informally being looked at just 
by virtue of operating together, and that also is a topic of 
discussion.
    There is a lot of communication that goes on, obviously, 
between the transition teams and the commanders of the 
partnered units. And so that exchange of information is also 
helpful in terms of the analysis of the effectiveness.
    Besides that raw data, what I would add is that there is 
operational information, and that is as you either work with a 
unit or you observe them in the fight, you do some analysis to 
determine what is their level of effectiveness based on their 
assigned missions, and you can see them out operating. Because 
these embedded teams are out operating with the unit, watching 
an operation, that is partially recorded in the TRA 
information. But also the Corps commander and his subordinate 
division commanders that are working with these Iraqi units 
also see the effects of their operations, and that can be 
anything from how they perform in a fight, to the number of 
intelligence-based operations they are conducting successfully 
and other kinds of indicators that tell you that that unit is 
either being more or less effective.
    Mr. Meehan. What specific adjustments have been made over a 
period of years as we have gotten data or information? What 
types of changes have we implemented as a result of--obviously 
training the Iraqi Security Forces hasn't gone as well as 
anyone anticipated that it would in the beginning.
    I find it very difficult to, number one--other than going 
to Iraq and talking to people who are there, we have had a 
difficult time getting people before this committee, Oversight 
and Investigations, to talk to us about how this process really 
works and what adjustments are made as a result.
    I appreciate, General, your testimony or your answer to the 
question. Those answers are in most of the books that we get 
here, most of the briefings. But I am wondering what 
adjustments are actually made in terms of real life?
    General Jones. I can start quite a while back. When I 
arrived in March of 2004 one of the first big adjustments that 
we made was the concept of embedded teams. We started off with 
the Iraqi Army Forces having what I would call part-time 
advisors, and that is people who would go through as mobile 
training teams, which is a very effective way to train U.S. 
forces.
    However, what we discovered, beginning with the April 2004 
operations that went on where we saw the Iraqi forces weren't 
progressing like we thought they would, what we saw was that 
was not a very effective method of training Iraqis.
    So that is when we began to make the transition to embedded 
teams that work with the same unit, they live with the unit, 
they eat with the unit, they stay with them all the time and go 
out on operations with them; that was the first fundamental 
change.
    Some other changes that have been made along the way 
include we discovered that there was with the transition teams 
some difficulty in having the transition teams working for 
MNSTC-I but operating with the unit that was in the operational 
area of the Corps. That is one of the reasons why the Iraq 
Assistance Group was formed, is so that inside the Corps you 
have an organization who are the owners of the transition 
teams, and that way the operational chain of command has 
responsibility for the transition teams and they work inside 
the operational context that is going on, not MNSTC-I, which is 
a separate command.
    Mr. Meehan. General, is anyone at the Pentagon accountable 
for the oversight of this effort?
    General Jones. In terms of the training and equipping 
effort?
    Mr. Meehan. In terms of just oversight of the entire 
effort. Is there someone at the Pentagon who is accountable?
    General Jones. Obviously, the Secretary is accountable for 
everything. And then in terms of the specific elements, there 
are certain aspects accountable by different people. In terms 
of the spending of money, obviously, the comptroller is 
responsible for monitoring that.
    Mr. Meehan. What I am trying to get at is we presumably 
have this process that we are using over a long period of time. 
I am just wondering if there is someone at the Pentagon 
responsible for the oversight of the entire operation. I 
understand the Secretary of Defense is.
    General Jones. Sir, it is essentially, like most other 
things, the staff obviously provides information to the 
leadership in the Pentagon, but the chain of command runs from 
the Secretary to the combatant commander to General Petraeus. 
And so clearly the chain of command is responsible for it. It 
is monitored by a variety of people based on the function that 
you are looking at, whether it is money, whether it is the 
manning of the units in order to provide the support, whether 
it is the operational effectiveness of the units.
    Mr. Meehan. Okay. If the TRA's go to MNC, why is General 
Dempsey, for example--why would he be the best witness that 
they think would be the best person to come before the 
committee? Wouldn't General Odierno?
    General Jones. General Odierno is the Corps commander. I 
will have to defer to the Office of the Secretary of Defense 
colleague but----
    Mr. Meehan. I am just curious why General Dempsey would be 
the witness that the Pentagon would think would be the best.
    Mr. Velz. Mr. Chairman, Lieutenant General Dempsey is also 
responsible for the development of the Ministry of Defense and 
Interior, which has command and control over the Iraqi forces. 
So he would have the best overall perspective on what the 
overall requirements would be for any adjustments that needed 
to be made.
    Certainly General Ordieno as the operational commander 
would have the best visibility over the operational situation. 
But it is just like in the U.S. military, when you are trying 
to figure out what to do about the force, you generally look to 
the higher headquarters, the services, if you will, or the 
Joint Staff to make the recommendations on that.
    Mr. Meehan. As Members of Congress, one of the reasons why 
we go to Iraq on a regular basis is to actually talk to the men 
and women who are on the front lines, because often times we 
get a better perspective. Sometimes we hear that they are not 
getting equipment that they need; or we are hearing that there 
are problems with communication that result in not having up-
armored Kevlar vests, for example; not getting water, those 
types of things.
    That is why the committee likes to try to get, in addition 
to able, articulate people like yourselves, to get some people 
who are really more operational.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman. If you were to change 
hats with us and be Congressmen--I know that might seem like a 
nightmare to some degree--but when we go to Iraq, depending who 
you talk to, you get valuable information depending on what 
level you are. Sometimes if you are talking to a sergeant you 
get some very specific information on a point topic.
    I think my favorite people to talk to were lieutenant 
colonels, just because it seemed like they had responsibility 
for something and they would say, look, I don't know anything 
else about what is going on but this area; this is my deal and 
I can tell you about it.
    We got some very valuable help. We calibrate what we are 
asking questions about and sometimes we get the top commanders 
talking to us. Everything was generalities but nothing to flesh 
the picture out. And I think that is what the Chairman was 
making reference to.
    General Jones, you started to develop a little bit of the 
transition of how we are working with the training. You said 
initially we run a team of people through the way we treat the 
U.S. troops, and it seems to work okay for the U.S. troops but 
it wasn't working in Iraq. So, instead, the concept was to take 
the team and just literally leave them with the unit for a 
period of time.
    Is that partly because they didn't have the same 
assumptions that our troops do, and so you have to--it takes 
longer to build that? And what were the transitions, if you 
would just kind of speed up your answer, from when you were 
there in April of 2004, what were those changes and how did we 
learn and develop how we were doing the training?
    General Jones. If I can answer the second part first. We 
transitioned to this embedding concept. Another adjustment that 
we made was, in fact, beginning to collect readiness 
information because the Iraqis had no system for doing that. 
The next major shift was the establishment of partnering units. 
That was an item that was done a little bit more than a year 
ago.
    So it has been a series of adjustments made, based on what 
we thought was best as the situation developed. In terms----
    Mr. Akin. Were some of those things, with 20-20 hindsight, 
things you would have done five years ago, or were some of 
those things also because the Iraq situation was moving as 
well?
    General Jones. Congressman, I think both. I think many of 
those things, had you known more about the Iraqis, some of 
their limitations, their culture, a lot of factors about them, 
you might have done some of them earlier. In some cases the 
situation has obviously changed. Since when we first began 
doing this level of violence, a lot of other factor have 
changed.
    Sir, in answer to the second question, why some things 
don't work, the Iraqi culture is just different. I call it the 
Inshallah Factor; and that is, in the U.S. we understand there 
is a very clear cause-and-effect relationship between what you 
do and the results that you get. For instance, at the lowest 
level, firing a weapon. I know if I train somebody, that if I 
teach them the seven steady hold factors, how to aim the weapon 
properly and so forth, that they will hit the target with the 
bullet. But because of the religious and cultural background of 
most Iraqis, they are very fatalistic and they believe that 
things are all based on the will of God; if God wants the 
bullet to hit the target, it will hit the target and what I do 
does not affect the outcome.
    And so you have to establish a level of trust in a 
relationship with Iraqis in order to then persuade them to 
change their behavior in a way that then allows them to start 
performing at a higher trained level.
    So those are things that, flat out, I didn't know when I 
first went to Iraq; that it took me a while to learn about 
Iraqis.
    Mr. Akin. What I hear you say is you take an American 
soldier and say, look, if you hold the weapon this way and you 
make sure that you are using this particular eye when you are 
lining up the site picture, you are going to hit the target 
more. And they go, oh, thanks for the tip. And they may shoot a 
little bit better.
    You are saying with the Iraqi, you have got to develop that 
personal relationship and it is a longer sort of process to try 
to effect a change.
    General Jones. That is correct.
    Mr. Akin. It is just a method of thinking and all.
    Mr. Velz. Sir, can I add a point?
    Mr. Akin. I was going to let you finish, because the 
transition was we sent some people through, and that wasn't 
working too well, and then we embedded some people. Is that 
where we are, embedding units?
    General Jones. We have increased the number of embedded 
teams markedly. We are embedding not just in the military units 
but also police units. We then established a partnership, 
because our embeds are generally junior to the unit that they 
are advising. That is pretty normal in terms of how we do 
advisory duties, whether it is Special Operations forces or 
conventional forces.
    So while you might have a major who is the advisor for a 
battalion normally commanded by a lieutenant colonel, by 
partnering a unit you have a peer who is able to coach and 
mentor that battalion commander at things that it takes a 
little bit more experience at that command level to do. So you 
have that kind of parallel partnership activity going on.
    But those are some of the adjustments that we have made in 
order to try to adapt. We are now doing things like the re-
bluing of the national police. One of the problems trying to 
build a force in the middle of conflict is that these units are 
engaged every day in security operations. And so, for instance, 
the national police re-bluing, we are actually taking units out 
of the line, we are going through a revetting procedure to get 
rid of some of the folks that we don't want to have in those 
organizations, or doing some retraining where they are not 
engaged in operations but they are separated out in a training 
environment before they go back in and conduct operations 
again.
    So there are a lot of other adjustments that I could spend 
a lot of time talking about, but things that have evolved over 
time based on how we have learned.
    Mr. Akin. Mr. Velz.
    Mr. Velz. Yes, I was just going to add, three years ago at 
this time in the spring of 2004, there were basically four 
battalions of the Iraqi Army and they were basically in 
collapse after the first battle of Fallujah. General Jones had 
maybe a few battalions of what was called the Iraqi Civil 
Defense Corps, which were just local militia that had minimal 
training. There weren't any units to advise at that point.
    Very quickly, though, over the next six to nine months, 
large numbers of battalions got stood up by MNSTC-I. And so by 
the end of 2004, beginning of 2005, we were seriously looking 
at how to do an advisory mission with embeds. And that is 
basically because the quantity of units that was being stood up 
was growing so rapidly. At the same time, of course, as General 
Jones mentioned, the conditions on the insurgency also required 
a more intense focus on this as well.
    But it was largely as a result of the very quick buildup of 
the Iraqi Army units beginning at the second half of 2004, that 
is when we really started to look seriously as how to do the 
embed mission in Iraq.
    Mr. Akin. I just wanted to conclude because I don't want to 
hog the microphone here, but I wanted to thank you, General 
Jones, for working with us and getting the TRAs to us. I know 
you put a lot of work into that, trying to speed that paperwork 
flow so we have a chance to see some of that data. Thank you 
for your work on that.
    Thank you, Mr. Chairman.
    Mr. Meehan. Before we go to Dr. Snyder, General, you 
mentioned re-bluing efforts. The Washington Post reported that 
the plan to reform the National Police by re-bluing and firing 
corrupt leaders is in trouble. General Pittard apparently was 
angry, saying that the Maliki government was actually firing 
the good leaders.
    Are you familiar with any of this, and what is your 
explanation or response to that?
    General Jones. I am familiar with the article and I did 
not--I did not take from the article that General Pittard was 
talking about the re-bluing effort. The re-bluing effort, to 
the best of my knowledge, those leaders that have been replaced 
in the re-bluing effort have not been replaced as a result of 
any influence out of the national government, it is inside the 
Ministry of Interior. And I believe that all of the leaders I 
have talked to in Iraq have been very pleased with the way they 
went about eliminating bad leaders inside those forces.
    Mr. Meehan. So no one at the Pentagon or, General Pittard, 
or the military hasn't been concerned that the Maliki 
government was actually firing some of the good leaders.
    General Jones. That is incorrect. I think that what you are 
talking about is the re-bluing effort. I think that has 
actually gone on well. Of course, we are all concerned about 
any time----
    Mr. Meehan. How about the effort to fire corrupt leaders?
    General Jones. The effort to fire corrupt leaders inside 
the Ministry of Interior and Ministry of Defense, we have seen 
a large improvement in that. I wouldn't tell you it is 
completely successful. It is an ongoing process. We are in fact 
concerned that there are leaders that may be being fired or 
replaced because of sectarian differences, and we are watching 
that very closely.
    There have been cases where that has been done, that we 
have gone back to the government and said this is wrong and it 
should not happen. So it is not an area that we are satisfied 
with. We are continuing to watch it closely. We have seen a 
significant improvement, but it is not where it needs to be.
    Mr. Meehan. So there has been a problem inside the two 
ministries that you have mentioned, but they are having 
problems outside those two ministries.
    General Jones. I believe that in general the nature of how 
the Iraqi Government works is they have a long tradition of--
not merit-based promotion or selection, but what I guess we 
would call either cronyism or some other method, but not being 
merit-based. We have been encouraging them to become merit-
based. We have seen a significant amount of progress. But in 
the two security ministries I think they are reflective of some 
of the problems they probably have in other ministries as well.
    Mr. Meehan. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here. I hope you took the spirit of Chairman Meehan's 
comments at the beginning; we really do appreciate you being 
here. I, in fact, probably doubly appreciate you being here. I 
figure you come over here having drawn the short straw. I don't 
know what is going on in the Pentagon these days in regard to 
this committee, but I think it is symptomatic of bigger 
problems within the Administration and within the Pentagon.
    General Jones, your bio says you are accompanied by your 
wife Pat. Is she here today with you?
    General Jones. She is not here today.
    Dr. Snyder. I figured that was a more generic sense. I was 
going to recognize her if she was. I will recognize that she is 
not here. I know you appreciate the support that she has given 
you.
    One of the frustrating things about what has happened in 
the last few months is it has taken a long time to establish 
this subcommittee, and this subcommittee has a record of 
working in a bipartisan manner. In the past on the House side, 
and you are on the joint command, the Joint Staff, the 
Goldwater-Nichols work that we talked about came out of the old 
ONI Subcommittee on the House side. Chairman Skelton was a 
member of that subcommittee at the time.
    There are a lot of good things that can come out of this 
committee in the spirit of us all getting on the same page and 
working together, and that is where we really are not sure what 
is happening with regard to the timeliness and appropriateness 
of getting the information to the people over here to this 
subcommittee.
    So my question for you, General Jones, is--Mr. Meehan is 
leaving, he is going to be effectively out of here July 1. He 
has got a new life as president at the University of 
Massachusetts at Lowell. So what has he done wrong? Has he been 
too polite, has he been too thoughtful, too bipartisan? What 
has he done wrong that your seniors in the Pentagon do not want 
to provide him the kind of witnesses and information that he 
and Mr. Akin, pulling hardest together in a very bipartisan 
way, that they don't seem to be forthcoming with that 
information? What advice do you have for whoever the future 
chairman of the subcommittee is going to be?
    General Jones. Sir, I would just--I can't speak for some of 
the folks you may be talking about, frankly, because I have 
never had that discussion with them. I certainly think--I do 
not think it would be a fault to be too polite or too 
bipartisan or too courteous. I wouldn't view those as faults; I 
think those are good traits.
    I am a professional military officer and I do the best I 
can to provide the information that I am asked to provide in a 
way that is meaningful.
    Dr. Snyder. I have read your resume, you have a good 
reputation; it is just we are trying to figure out where to go 
from here. It is getting frustrating. A lot of what this kind 
of subcommittee is about is ultimately looking at things we 
have done wrong or can do better. There is a lot of splash that 
comes from hearings that have dramatic witnesses and lots of 
cameras and all that kind of stuff. A lot of times those kinds 
of hearings don't lead to any change in legislation.
    I think a lot of Mr. Meehan. One of the questions he was 
asking before he agreed to take his chairmanship is, what can 
we do constructively? For example, ultimately if you have a 
shortage of equipment for your Iraqi troops or for our troops, 
it is our problem. We haven't bought enough, haven't given you 
enough money in a timely way. If you don't have enough foreign 
language speakers, whether it is Farsi or Arabic or whatever it 
is, it is ultimately our problem. We are not allocating enough 
resources and giving you the kind of people and incentives to 
get people in the kind of skills that you need. If we have a 
problem with contractors not performing, ultimately it is our 
problem because we haven't given enough tools to do the 
oversight.
    So we have been struggling with this. I can remember 
sitting down there when Mr. Bremer was sitting where you are, 
General Jones--I think it was a closed session, I don't think 
it was classified--sitting right in the front row, and I asked 
him what do you need from Congress, and the answer was 
patience. That was his only answer, patience.
    You see where that has got us. We were assured for, I don't 
know, a year or two or three, everything was going just great 
with the training of these Iraqi troops.
    So that is the frustration, whether you are talking about 
the Iraq Study Group or the President's plan or Secretary 
Rumsfeld, Secretary Gates' plan, ultimately this is going to 
depend on can Iraqi troops and the police stand on their own. 
And so we are here trying to figure out what we need to be 
doing to help with that effort that has been struggling for the 
last several years, and so it is very frustrating with regard 
to lack of the spirit of cooperation. Maybe I will put it that 
way.
    General Jones, do you know Congressman Shimkus, one of our 
Republican colleagues from Illinois, West Point graduate? John 
puts together every year this training program for the young 
officers, and Ms. Tauscher and I participate. I don't know if 
Ms. Davis has. It is a videotape thing, and we pretend we are 
Members of Congress--which we are pretty good at pretending 
at--and they pretend, these young officers, that they are 
testifying before a congressional committee, and I think they 
are majors or lieutenant colonels, folks who are identified 
they are going to go on up.
    So we have scenarios, and there are bad things going on in 
the world. But it is wonderful experience for me because I 
learned where you all are trained how to answer the questions. 
One of my favorite phrases is ``Well, Congressman, that is a 
great question.'' I am thinking I heard that, I think--how many 
times have we heard that? You were trained to say that. You are 
trained to say that.
    That is all okay; my concern is that somehow there is this 
ethic within the Pentagon that part of that training is 
obfuscation. If you can go into the committee room and get out 
in an hour and a half and haven't done much to tip the boat 
either way, it has been a great day; rather than in the spirit 
of coming in and saying here is where are our problems are, 
here is where we have screwed up, here is where we think you 
have screwed up and here are things we don't have any idea what 
is going on.
    Maybe that is expecting too much, but it is in the spirit 
of trying to make things better so that you all can do the kind 
of job that you want to. I hope that you and whoever you all 
have these discussions with about how you got up this morning, 
I understand how deep the concern is with the House Armed 
Services Committee, about the Pentagon attitude toward this 
subcommittee. We don't understand it. It is probably more than 
any other subcommittee in the Congress working in a bipartisan 
manner. And it is not going to go away. Mr. Meehan may be going 
away, but this subcommittee isn't going to go away.
    Mr. Meehan. Congressman Snyder, those are great comments. 
Congressman Jones.
    Mr. Jones of North Carolina. Mr. Chairman, thank you. I am 
not going to beat up or pontificate, but I must say I sit here 
in total dismay, not with you two gentlemen, but we are talking 
about over 3,000 dead men and women. We are talking about 
20,000-plus wounded, paralyzed, IEDs, hit in the head. And my 
frustration is not with you gentlemen, the frustration in my 
opinion is the arrogance of this Administration.
    They have wanted to stay the course for five years. We 
stayed the course. And I sat here for five years and have heard 
how well the training is going. The newspapers say no, it is 
not going well. Again, not you two gentlemen, but those who 
have been at the table, things are getting better.
    But tell the American people why this country is going 
broke and spending $9.2 billion a month in Iraq, and Senator 
McCain is on Meet the Press and Tim Russert says: Senator, it 
has been reported that we only have--and I don't know if it is 
6,000 or 8,000, but it is not many, let's say 6,000--Iraqi 
military that can go out on patrol on their own, without having 
somebody from the military of America or the coalition walking 
with them.
    And I think it is disgusting, I will be honest with you. I 
couldn't quite figure out when General Jack Sheehan turned down 
the position as war czar, and his comment in the Washington 
Post was, ``They don't know where in the hell they are going.''
    And I sit here, Mr. Chairman, and I am frustrated as a 
Republican that those in the Pentagon, and not these two 
gentlemen, have turned their nose up to the Congress; not just 
the Oversight Committee, but to the Congress.
    The American people changed the majority in November of 
this year because my party would not do what we are trying to 
do today. The American people have a right, whether they agree 
with the policy in Iraq or do not agree with the policy in 
Iraq, to know what is happening. And I think it is so 
discouraging for the American people, not for us, not for us, 
but discouraging for the American people that a Congress, a 
subcommittee under Armed Services, cannot get the straight 
answer. Again, not from you two gentlemen; you are here because 
you were chosen, or, as Mr. Snyder said, or Mr. Meehan, you got 
the short straw.
    But I will tell you that the American people are fed up and 
I am frustrated and fed up, and I hear General Jones, and we do 
claim kin if you want to, maybe not when I finish, but this is 
not toward you personally, there is a cultural difference.
    Well, I would like to suggest, Mr. Chairman, that maybe we 
give Paul Wolfowitz a new job and send him over there as mayor 
of Iraq since the neocons got us in over there, and maybe Mr. 
Perle can be co-mayor or co-chairman.
    Trust. You cannot--people who have hated each other for 
1,400 years--and it is so unfair to put our military there to 
be policemen, to be negotiators, to try to make these people 
work together, the Shi'ias and the Sunnis.
    I, with a couple of Democrats and two other Republicans two 
weeks ago, met with a gentleman from the Parliament in Iraq in 
Wayne Gilchrest's office. The man says, I am a Shiite, I am 
married to a Sunni. He talked about how corrupt the Maliki 
government is. This is one man's opinion. He had an 
interpreter. I don't know.
    But the issue is that what we are trying to do is to get to 
the facts of where are we going. Is there a possibility for a 
victory, is there a possibility for an end point to the 
strategy, or does it just go on and on and on? And I heard 
General Jones and the Secretary--I mean you are right, it is 
adjustments, adjustments. It is trust, it is their culture.
    God knows, when you go to Walter Reed, and all of us do, 
and you go to Bethesda--and I never will forget two years ago I 
went with Gene Taylor to Walter Reed and we go in the room and 
there is a mom and a dad, and the mom has got tears coming down 
her eyes, and we speak to her, then we go to the bed and there 
is an army sergeant, he has got his attractive fiance down at 
the foot of the bed.
    We speak to him, and before we get ready to leave, and by 
that time we know that he has lost both legs. Been amputated. 
He had been to Iraq twice. He said, Congressman, I know my 
opinion does not matter because I am just a sergeant, but we 
assured him his opinion did matter, I want to make that clear 
to the committee. He said, You cannot make these people love or 
like each other.
    So, Mr. Chairman, I want to say this committee does have 
subpoena power, and I hope--I hate to see you leave, but if not 
used before, then the new chairman, whomever he or she might 
be, I think should say that we are going to bring in the people 
who are going to make these decisions. I know you are decision 
makers, don't get me wrong, you are decision makers, and I 
respect you both. I don't know you, but I respect you both, but 
I want somebody to answer to the American people. And if they 
have got to be sworn in in a closed hearing, get the press out, 
fine. But this Congress has been sold a bill of goods for five 
years. And it is not the Congress, it is the dead, it is their 
families, it is the wounded and their families that have a 
right to know the answers; it is not us.
    And I will close on this, Mr. Chairman. I will never forget 
a kid five months ago down at Johnson Elementary School, Camp 
LeJeune, which is in my district, and I was asked to read a 
book, Doctor Seuss, to the kids, ten kids, Hispanic, black and 
white, six years of age. And before I finished one kid, I am 
sitting in a rocking chair--where I probably belong at this 
stage of life--sitting in a rocking chair and the last kid I 
called on to ask me a question said--I want to say it very 
slowly and clearly--my daddy is not dead yet.
    We have a right to get the answers, the honest answers 
about training of the Iraqis. We have a right and an obligation 
to the Constitution of the United States of America. And if we 
cannot get the answers, then democracy is in trouble because it 
will crumble and it will fall.
    With that, Mr. Chairman, I yield back my time.
    Mr. Meehan. Thank you, Mr. Jones.
    And Mr. Jones, I want to assure you, in fulfilling our 
responsibility to oversee the military, we will get the access 
to anyone in uniform, not just high-level officers. These new 
guidelines that limit Congress's freedom to get testimony from 
a wide range of service members and civilian Pentagon 
employees--I have a meeting with Mr. Skelton later on today. We 
are going to meet with the Secretary of the Defense Gates--but 
as far as I am concerned, we will subpoena people. The 
Department of Defense does not have the right to bar enlisted 
personnel or career bureaucrats or any officers from testifying 
before this committee. So we are moving forward with a meeting 
with the Secretary Gates.
    Mrs. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Thank you to all of you. I am sure you didn't expect the 
morning to be quite like this, but we welcome you here and 
thank you for being here. I wonder if you could perhaps respond 
a little bit, what questions do you think we should be asking 
that would give us the greatest insight? One of my concerns is 
we are talking a lot about numbers, how many people are 
trained; how many people are capable of performing 
independently? But I am also impressed that what has been 
called the kind of open source decentralization of the 
insurgency, of the warlords, militias, that we should be 
talking more about what we are learning from what they are 
doing, and how we are responding, and how we are in fact 
training the Iraqis, along with ourselves, to adapt better. Is 
that something that we ought to be focusing on more than on 
numbers? Because if we don't get what is going on out there, if 
we don't know our enemy, then how in the heck are we going to 
be able to be successful at what we are doing? And so I am 
just, you know, is that appropriate from your points of view? 
Is it only numbers? What are we missing?
    General Jones. Ma'am, I would say in fact it is a whole lot 
more than numbers. You know, it is nice to have quantifiable 
things to analyze. And quantifiable things are very important, 
but there are some things that aren't as easily quantifiable 
that are also very important as well. In terms of adaptation 
for the security forces in Iraq, I think that is probably not a 
well understood, but very important, aspect of all of this. And 
the more you understand about the adaptations we are trying to 
have, I think the more you recognize the level of difficulty of 
the task.
    Ms. Davis of California. Can you identify what is the 
greatest frustration in trying to do that and trying to 
ascertain that then? And again, what is it? Do we need more 
resources? What would make a difference?
    General Jones. Part of it is time. You know, we have 
institutions in Iraq that have at least 35 years, but probably 
more than that, of institutional culture that we are trying to 
change. Under the Saddam era, the security forces were focused 
pretty much on a single thing, and that is keeping an 
individual in power. The idea of having an institution whose 
job it was to serve the Nation or the people of the Nation is a 
marked change in the institutional culture that, you know, that 
we are working with. And we have made considerable progress in 
doing that, but it is an extremely difficult task. We are 
trying to create security forces that can deal with an 
insurgent environment. The traditional Iraqi Army forces were 
trained to deal with conventional threats, other armies. They 
had no doctrine, no concept of how to do intelligence-based 
operations to deal with an insurgency. So we have started to 
work that basically from the ground up to include the training 
of all Iraqi leaders who, none of them had really any 
experience or any background that would make it easy for them 
to make that transition as well. So, I mean, there are a lot of 
things like that that are not quantifiable things but that are 
part of this whole rubric.
    Ms. Davis of California. How are we going to use that then 
to try and move forward, understanding it is not all 
quantifiable, but I guess what I am looking for is something 
that I am not just reading in the papers, that we could be 
doing that is specific. And maybe, you know, getting moving 
away from this little bit, if you could talk about, we are 
obviously involved in a surge. Has that taken folks away from 
the embedding and the training to your knowledge?
    General Jones. The answer is no. This plus-up of forces is 
in addition to the forces that were there and the transition 
teams that are embedded. So in fact it hasn't taken away from 
the transition teams. What has happened is the number of forces 
that are partnered with Iraqi forces have increased, especially 
in Baghdad and to some degree in al-Anbar. So it hasn't had a 
negative effect. I would argue that it is having a positive 
effect early on here.
    Ms. Davis of California. Are there--is the revenues that 
are being provided, the money that is being provided to train 
and to work to develop an infrastructure in the service, in the 
Iraqi service, is that something--do you have that? Are you 
relying on supplementals for that? Can you talk about what 
percentage of those dollars come from that? Have the estimates 
changed for what is needed?
    General Jones. In terms of infrastructure for the security 
forces, that has been part of the program that has been 
partially coalition funded, partially Iraqi funded. Initially, 
it was predominantly U.S. funds. Iraqis are funding larger and 
larger portions of this over time. Currently, right now, the--
obviously, there is a supplemental that is being worked on here 
that has funds in it to continue to do the training, equip the 
mission. There is funding in next year's budget as well to 
continue to do that.
    Ms. Davis of California. Do you have an estimate for that?
    General Jones. I apologize, I didn't bring budget numbers 
with me. Maybe----
    Mr. Velz. Congresswoman, are you referring to just the 
surge-related costs or the 2000----
    Ms. Davis of California. The training----
    Mr. Velz [continuing]. For 2007 and 2008?
    Ms. Davis of California. The training costs and how that 
develops.
    Mr. Velz. Okay.
    Ms. Davis of California. Yes, for U.S. versus Iraqi.
    Mr. Velz. The way we look at this, we look at this as a 
total cost of security that we are funding and the Iraqis are 
funding, and then we have different programs under that that 
are implemented. Some of it may be training. Some is buying 
equipment. Some is building infrastructure. But a lot of it is 
just keeping the Iraqi forces operational, buying fuel, buying 
ammunition, bullets, food, life support and so forth. So we 
basically, for 2007, the Iraqi government has budgeted about 
$7.3 billion for this for both the Ministries of Defense and 
Interior. And from our supplementals and from our main budget, 
we are spending about $5.5 billion. So they are paying the 
majority of the total cost. Total cost is about $13 billion. It 
is about a 7 to 5 split. For 2008, we have requested $2 billion 
so far for the 2008 request. And we expect the Iraqi government 
to pay somewhat in excess of what they are paying this year. So 
they are paying this year over $7 billion. They will pay more 
than that next year. And that is where we are at the moment. 
Most of this is--most of the U.S. funding is to build the 
capacity of the Ministries of Defense and Interior to keep 
their forces in the fight, to sustain their forces, building 
logistics capacity, building warehousing and supply chains and 
so forth, which right now is one of their critical 
shortcomings. So it is admittedly a fair amount of money, but 
it is--to basically address a, what we have identified as a 
significant requirement to, if you will, take the Iraqi 
capabilities to the next level.
    Ms. Davis of California. Thank you.
    Mr. Chairman, I would certainly have other questions in how 
that is going in terms of logistics training, because we know 
that, even culturally, as you mentioned, some of the ideas that 
we take for granted aren't necessarily part of the way in which 
the Iraqis would approach the task of logistics. And so how--
can you give us a rough estimate? I mean, do you feel that that 
is moving or so slow that you anticipate that we would be two 
years behind in the training that you would have anticipated? 
Where is that?
    Mr. Velz. Well, a lot of the operational and tactical level 
units have been built and are functioning at various levels. 
What really needs to be focused on the most, and that is what 
we are focusing on, is the ministerial level, if you will, the 
equivalent of the Office of the Secretary of Defense (OSD), 
Acquisition, Technology and Logistics (AT&L) type of function. 
The equivalent of the OSD personnel and readiness function. 
Those are the things that we are focusing on in terms of 
capacity development.
    Ms. Davis of California. Could you give it a grade today?
    Mr. Velz. Well, MNSTC-I gives them grades. I would have to 
defer to General Jones on what his assessment is of that. I 
will say that from the standpoint of the Ministry of Defense 
(MOD)--let's just take the Ministry of Defense logistics 
system, you mentioned the Iraqis perhaps have a different 
concept. I think we are at the point now where there is a fair 
degree of consensus between the coalition and the Iraqis on 
what the concept is. And we have been basically building it for 
the last year-and-a-half or so. There was a lot of discussion 
in 2004, early 2005 about what it should look like, but I think 
that has largely been resolved now. And you know, the flow 
chart, if you will, for the system is agreed on. And if you 
look at the supplemental request, you can see in there the 
building blocks that we are funding in that.
    Ms. Davis of California. General Jones, did you want to 
give an assessment, a quick grade, if you will?
    General Jones. I would say that it is a work in progress. 
If you look at, we have had some significant success I think in 
the Taji National Depot, where they are doing fairly high-level 
maintenance procedures for equipment. As you go through the 
motor transport regiments and the logistics support units, you 
have some that are stood up that are operating with our 
support. You have some that are still being formed. So that is 
occurring this year. But it will still take a while to get them 
to where they are really operating at capacity; into next year 
at a minimum, I think.
    You have alluded to the fact that it is--there are some 
issues in this region as a general rule on the logistics side 
in terms of having the level of logistics effort and 
sophistication that we have. So there is a considerable amount 
of work to be done. Finally, in the ministries, we have seen 
some progress, but they still have major challenges in terms of 
budget execution. To that end, we are helping with budget 
execution on an interim basis by working with them on foreign 
military sales. We have got $1.9 billion of Iraqi funds that 
have been deposited into an account for foreign military sales, 
where we can assist them in spending that money to buy 
equipment for their forces. So we are helping them in those 
places that are most critical, but at the ministerial level, 
there is a significant amount of work to be done to get all of 
those systems in place that would really give them a fully 
functioning system.
    Ms. Davis of California. Thank you. Mr. Chairman.
    Mr. Meehan. Mr. Velz, you mentioned a logistics concept. We 
asked for a copy of the logistics concept on March 20th. On 
March 20th. We can't get a copy of it. We would love to have a 
discussion about the logistics concept. I can't imagine why the 
Pentagon would want to keep the logistics concept secret from 
the subcommittee, but they haven't responded to us. And there 
are so many things that we could have a dialogue about and 
really try to find consensus. But you mentioned logistics 
concept. March 20th we asked for it, still haven't been given 
it.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    I thank the witnesses for their service to the country. I 
appreciate them being here today. As of May the 9th, the 
research indicates that we have trained 337,200 Iraqi security 
and Iraqi police. And I know that that is a much higher number 
than was originally anticipated. Ambassador Bremer's initial 
plan I think called for a new Iraqi Army of 40,000 people. 
There was some other kind of corps that was going to be maybe 
15,000 people. The numbers have just grown and grown and grown. 
Something else that has grown with it, though, is the number of 
attacks being waged in Iraq. The Government Accountability 
Office (GAO) has done an analysis of this. And approximately 
500 attacks in the month of June of 2003; 1,800 attacks in the 
month of June of 2004. In the month of June of 2005, 2,000 
attacks. In the month of June of 2006, 3,500 attacks. So the 
number of attacks, as defined by the GAO, has gone up 
significantly at the same time that the number of trained Iraqi 
security and police have gone up. By December of 2006, the GAO 
analysis indicates that we had 5,000 attacks.
    I assume it would be Mr. Velz who would answer this 
question. For the last month for which you have available data, 
how many attacks were launched by the resistance or 
counterinsurgency in Iraq?
    Mr. Velz. Sir, I don't have that data with me, but we can 
provide it for you.
    [The information referred to can be found in the Appendix 
beginning on page 43.]
    Mr. Andrews. It is correct you will provide it? Because I 
will tell you when I asked for this information through the 
Department, I was told I would have to file a Freedom of 
Information Act request. Is that correct?
    Mr. Velz. We, in our quarterly report, we report attack 
trends.
    Mr. Andrews. When you say attack trends, the GAO again 
produced what was previously classified--it was unclassified a 
few months ago, from which I am reading--an actual month by 
month account of attacks launched, breaking it down by the 
target of the attacks, whether it is coalition forces, Iraqi 
forces or Iraqi civilians. Is that information publicly 
available now?
    General Jones. Sir, that information is classified in terms 
of the breakout of specifically what is being attacked, you 
know, by numbers. I think that what we have done is 
declassified attack trend information that shows you overall 
numbers of attacks. But it is the assessment of commanders in 
the theater that providing detailed information about what is 
being attacked by whom would not be appropriate in terms of 
protecting their forces.
    Mr. Andrews. The first point that I would like to make, 
just to reiterate, Mr. Velz, I think, told me that attack 
trends information is publicly available. I hope that will be 
provided to members of the committee without filing a Freedom 
of Information Act request. Can I count on that?
    Mr. Velz. In the March 2007 quarterly report, we have a 
chart on average weekly attacks from April 2004 to February 
2007.
    Mr. Andrews. You have data older than February of 2007?
    Mr. Velz. This is in the March 2007 quarterly report.
    Mr. Andrews. So the next quarterly report will be due at 
the end of June?
    Mr. Velz. That is correct. At the beginning of June.
    Mr. Andrews. Now let me explore, obviously if in your 
judgment the target of the attacks should be classified, I 
wouldn't expect you to answer the question. On what basis are 
we classifying that information? My understanding is the 
purpose of classifying information would be to protect the 
lives of the people that are defending our country, to subject 
them to no undue risk or to avoid giving the enemy any sort of 
tactical advantage.
    You need to understand, though, that there is a political 
discussion going on in the country about whether or not Iraq is 
in a civil war. It is a very important question. It is not just 
a semantic one. And as the number of attacks against Iraqi 
civilians rise, so does the evidence that Iraq is in a civil 
war. What is the basis for classifying that number? Why can't 
the American people know that number?
    General Jones. Again, Congressman, I think that in terms of 
summarizing overall trend information in terms of the attacks, 
that that information is in a variety of open sources, to 
include the 9010 report that gets issued once a quarter or sent 
over to the Congress. The specifics of either the numbers of 
attacks against specific types of targets, the effects of those 
attacks, the casualties that are suffered because of those 
attacks we think provide the types of enemies that we have, 
that do not have complete information about what is going on, 
an advantage that puts our troops at risk.
    Mr. Andrews. I would never want in any way to suggest that 
we should do that. And I respect your judgment very, very much. 
But I think the committee needs to take into account the 
context in which these questions are being asked. The President 
said in January that we should give his surge idea a chance to 
work. And I believe there were comments from the President and 
the White House that, by July or August, we would know if the 
surge was working. The term ``working'' has to be attached to 
some quantitative and qualitative benchmark, to use a word that 
is going around here a lot. And although I would by no means 
say that the number of attacks should be the exclusive 
benchmark or that it tells the entire story, for those of us 
who frankly have come to the conclusion that we are now 
refereeing a civil war, knowing the number of attacks that are 
being launched against Iraqi civilians is a very significant 
number.
    And Mr. Chairman, I would just suggest that, in your 
discussion with the Secretary of Defense, that you raise this 
issue as to the what I view as an overclassification of 
information. Again, I deeply respect the judgment of the 
uniform personnel, in particular that if there is a need to 
protect information, protect our troops, I am for it. But if 
this is a political decision that is being made to cloud the 
discussion in the country as to whether the surge is working or 
not, that is indefensible. And I would hope that, in your 
discussions with the Secretary, you would make some of our 
views--I think it is yours as well--known. That is my strong 
sense here, is that we are overclassifying this information on 
political grounds rather than strategic ones. Thank you.
    General Jones. Mr. Chairman, if I could just elaborate.
    Mr. Meehan. General.
    General Jones. First of all, clearly, you know, we want to 
inform the committee and the members of what the information 
is. There is a classified annex to that 9010 report that does 
in fact have more detailed and classified information. However, 
in the unclassified portion there is some information about 
some of the subjects that you discussed. The numbers of attacks 
are in fact in the unclassified portion. I believe the attacks 
against civilians is also cumulatively a number that is in that 
unclassified portion of the report. So I think that most of the 
things that you mentioned in the aggregate, you know, by month 
are in the report. What I was talking about needing to stay 
classified is within a category of total number of attacks, 
Iraqi security force attacks versus coalition versus police 
versus other small sub-elements of that numbers of attacks.
    Mr. Andrews. How many attacks were there in April of 2007?
    General Jones. I don't have that number off the top of my 
head, but I----
    Mr. Andrews. Would you supply it for the record?
    General Jones [continuing]. I can supply it for the record. 
I can get that for you.
    [The information referred to can be found in the Appendix 
beginning on page 43.]
    Mr. Andrews. And could you give the committee a classified 
document that breaks the attacks down by the target of the 
attacks?
    General Jones. And I believe it will actually be in the 
report, but I will gladly provide that separately.
    Mr. Andrews. Thank you very much.
    Mr. Meehan. Thank you, Mr. Andrews. And I can assure you 
and the Chairman, in my meeting with the Secretary of Defense, 
we will bring these matters to attention. Oftentimes what 
happens to Members of Congress is we end up relying on what the 
New York Times and the Wall Street Journal are writing about 
numbers, because let's face it, these numbers leak out to media 
sources. And we get the information through the media rather 
than from the Pentagon. But I do want to distinguish between 
what is classified and what isn't classified to what has 
happened before this committee. The Department of Defense is 
reserving the right here to bar enlisted personnel, career 
bureaucrats and any officers below the rank of colonel from 
testifying to this oversight committee or to having their 
statements transcribed. And according to the guidelines from 
the Department of Defense, junior officers, non-commissioned 
officers deemed appropriate by the Department of Defense may 
only provide some briefings, but shall not be asked to have 
their names entered into the record or have it be part of the 
record. These are all rules, in my view, that are designed to 
keep from the committee doing its work. And it is plain, and it 
is simple. Whether that is political, whether that is 
embarrassment of how poorly things are going in Iraq, whether 
it is because they don't want to have to defend the years--we 
have spent $1.2 trillion. We will spend in defense spending 
this year, if you count the regular defense budget, the 
supplementals, approximately $1.2 trillion; 9.2 billion per 
month. So whatever the reasons are, we will get to the bottom. 
And hopefully, we won't have to resort to subpoenas. But we 
will if we have to.
    Mr. Spratt.
    Mr. Spratt. Thank you for your testimony. I am right here. 
Good morning, sir. What I ask you may be a bit redundant, but I 
want to kind of wrap it up as the cleanup hitter. And it 
particularly relates to the size of the Iraqi Defense Forces. 
As I understand it, we have set out to train 135 battalions. Is 
that the objective number? Infantry battalions?
    General Jones. I believe that is a cumulative number, sir.
    Mr. Spratt. How is that, sir?
    General Jones. That is not just infantry battalions. That 
includes national police battalions. It includes all police 
battalions.
    Mr. Spratt. Oh, it does. Okay. So 114 are now trained, 
deemed to be capable of planning an attack, coordinating an 
attack with other units and executing the attack?
    General Jones. Sir, if I could defer to--I can give you 
precise numbers in terms of what level they are in a closed 
session.
    Mr. Spratt. Okay.
    General Jones. The exact readiness rating is classified. 
But we can either provide that classified----
    Mr. Spratt. I was reading the memo for this hearing, and it 
had some of that information in it. Is the number 337,200 a 
classified number?
    General Jones. No, sir. What we have done, in order to 
provide information that is unclassified, what we have done is 
grouped some categories together. In the unclassified mode, we 
can say that there are 119 battalions between Iraqi National 
Police battalions and Iraqi Army battalions that are either 
operating as in the lead or independent categories of 
readiness.
    Mr. Spratt. I have got a page here, attachment number two. 
Do you have access to that? It has got a DOD seal on it and 
also says unclassified.
    General Jones. I don't have a copy of that, sir.
    Mr. Spratt. We will get you a copy.
    General Jones. Okay.
    Mr. Spratt. I thought he was handing him a copy. Looking at 
this chart, if you would--would you also hand him attachment 
number three, please, sir? Looking at this chart, it indicates 
that the objective Ministry of Defense forces are 143,000? 
Including the Air Force and Navy?
    General Jones. Yes, sir.
    Mr. Spratt. As I take it, you can't tell us how close we 
are to that number yet?
    General Jones. That is approximately right within 
somewhere----
    Mr. Spratt. About where we are?
    General Jones. Yes, sir.
    Mr. Spratt. And on the side of Ministry of Interior (MOI) 
forces is 194,200. And one category listed as other MOI forces. 
What are they?
    General Jones. Those are everything from the forensics 
units, major crime units, highway patrol. The way the Ministry 
of Interior is organized, you have station police, which are 
what is out in precincts and normal what we would think of as 
police stations. You have national police, which is a kind of 
gendarme-like organization, kind of a paramilitary, high-end 
security set of organizations. And those are organized in 
battalions. And so they have a quasi-military sort of 
organization. The other MOI forces are all the other kinds of 
things that you need in the police establishment. A lot of 
those in the United States would be decentralized to local, 
more local areas like State highway patrols, traffic police, 
you know, other kinds of police functions, and also the 
headquarters, everything from provincial headquarters to 
district headquarters and those kinds of forces.
    Mr. Spratt. Now, looking at we have 337,200 troops between 
the MOI and MOD, and 150,000 to 160,000 coalition troops. Do we 
have an estimate of what it is going to take to subdue the 
country and placate the country and bring it to some reasonable 
level of stability? What size force, indigenous force will it 
require and what augmentation is required of us?
    General Jones. The current plan for the force--I have to 
kind of caveat this with, to kind of reemphasize a point that 
we make; and that is, while the security forces are an 
essential element, forces in and of themselves are necessary, 
but not completely adequate for bringing the country to a state 
of peace.
    Mr. Spratt. I understand that. That is a point I am glad 
you made. But to the extent we need security forces, police and 
armed forces to back them up and to establish a rule of order, 
is 337,000 sufficient?
    General Jones. No, sir. The current plan is to bring that 
force level by the end of the year, up to something in excess 
of about 350,000. I will tell you that that force structure is 
under review by the Iraqi government, with us in an advisory 
mode to talk to them about their force needs and whether or not 
that number is the right number and if they need to make any 
other adjustments. So I would tell you that right now the prime 
minister and his government are looking at their force 
structure. But right now in order to get to what they think 
they need, it is a little bit in excess of 350. I believe the 
number is 365,000 total.
    Mr. Spratt. If you look at attachment number three, I infer 
from that that more than about two-thirds of the country has 
now been assigned to these trained battalions as their 
respective areas of operation.
    General Jones. Right.
    Mr. Spratt. So except for a little piece down in Basra and 
what looks like most of al-Anbar province, the country has 
designated indigenous forces assigned to areas of operation 
that cover most of the country today.
    General Jones. Right. This chart represents Iraqi forces 
that have been given sector control. And that is they are 
responsible for an area of operations. Again, this goes back to 
kind of the history when we started off and with Iraqi forces 
that are not very capable. Typically, coalition forces have 
been responsible for sector control, and they generally had 
operational control of Iraqi forces that operated under the 
tactical guidance of that coalition commander. What the green 
areas represent on this chart is where we have transitioned 
where an Iraqi unit has been designated as being responsible 
for an actual sector. Now, in order to do that, typically they 
are at one of the two highest levels of readiness.
    TRA level one is where they are independent, and that is, 
they don't need additional support to be able to do their 
mission. Level two is where, although they may be responsible 
for sector control and be in the lead of operations, they still 
need coalition support in order to be effective. So although we 
have been very successful in turning over sector control to 
Iraqi forces, in a lot of this green area, it does represent 
units that still are at level two, and that is, they still need 
coalition support in order to be effective.
    Mr. Spratt. It looks like the city of Baghdad is about half 
covered by areas of operation. As I recall, five brigades were 
to be part of the surge. How many have actually been deployed?
    General Jones. Sir, four of those have been deployed. The 
fourth one just arrived and started doing operations a couple 
days ago. And the fifth one is designated to deploy in June.
    Mr. Spratt. I am talking indigenous.
    General Jones. You are talking about Iraqi brigades, sir?
    Mr. Spratt. Yes.
    General Jones. The Iraqi brigades to be deployed, they came 
down in January and February. By the end of February, those 
additional three brigades were deployed. Two of those brigades, 
they originally were going to go for a 90-day period. Two of 
those brigades have been extended. The third brigade, there is 
a force that has been designated to replace them. The exact 
time of that replacement hasn't been determined yet to the best 
of my knowledge. But what we expect is one of those brigades 
will change out; the other two will remain in place.
    Mr. Spratt. Now, are these brigades Kurdish, or is there a 
way to characterize their composition, where they come from?
    General Jones. I would characterize two of them as being 
predominantly Kurdish.
    Mr. Spratt. Is this because it was difficult to get Iraqi 
units from the other parts of the country to come to Baghdad 
and participate?
    General Jones. No, sir. I believe the judgment was made 
based upon where forces could be moved from that would have the 
lowest risk in terms of the current security environment that 
they were responsible for. So, in this case, because of the 
relatively low level of violence, it was seen that you could 
take some of the forces and move them to Baghdad in a 
reinforcing mode and have the least amount of risk of security 
situation changing where they came from.
    Mr. Spratt. Now, is our plan to eventually clear up those 
beige areas and have them turned green, with areas of operation 
assigned to Iraqi units so that we can withdraw and leave the 
Iraqi units we have trained and work with in charge of that 
area of operation around Baghdad?
    General Jones. Clearly over time what we would like to do 
is continue to turn over more responsibility to the Iraqi units 
to where they are responsible for all the sectors in Baghdad, 
to then continue to reduce the amount of assistance that they 
need from coalition forces, understanding they will still need 
their embedded training teams with them for connectivity to 
those things that are outside the normal structure of those 
kinds of units, for instance, air support or other things that 
they may not have yet.
    Mr. Spratt. Did I understand you to say that the Iraqi 
units are staying about 90 days, rotating in and out on 90-day 
intervals?
    General Jones. The initial deployment order for the three 
Iraqi brigades was to deploy for a period of 90 days. Then the 
decision was made to extend two of the three brigades and just 
keep them beyond their 90-day rotation. The third brigade, they 
have identified another force to be able to replace it, to 
allow it to rotate back to its originating area. But all--but 
they will sustain the force levels that the Iraqis have 
committed to in order to have one of the Iraqi army brigades in 
each of the districts in Baghdad.
    Mr. Spratt. In order for us eventually to stand down our 
troops as they stand up their troops, doesn't it appear they 
are going to need more troops?
    General Jones. That is under consideration right now. It is 
one of the reasons they are re-looking at their force 
structure. I don't think there is a decision been reached--I 
know, as of a couple days ago, there had not been a decision 
reached or even a recommendation made to the prime minister yet 
for him to make a decision. But they are re-looking at their 
structure and whether or not the current program force is going 
to be adequate for their needs in order to allow us to 
withdraw. There are a couple factors in terms of what their 
needs are. One is the level of violence, which is a little hard 
to predict. But there are a number of factors that can change 
that. As we mentioned before, obviously political 
reconciliation is an essential factor that can change the 
dynamic pretty dramatically in terms of the security 
requirements. So, I mean, that is one example of other factors 
that could change that would cause them to either need less or 
more forces. But I think that, right now, they are doing this 
review based on their best estimates of what they think the 
security environment will need and how fast they can produce 
capability to replace the requirement for coalition forces.
    Mr. Spratt. Thank you, sir.
    Mr. Meehan. Thank you, Mr. Spratt. We would like to ask the 
staff if they have some questions and would like to, or if any 
of the members have follow-ups. But I would like to ask to Dr. 
Lorry Fenner, our subcommittee staff lead, if she has 
questions.
    Dr. Fenner. Just briefly. General, Mr. Velz, thank you for 
being here today. We have several iterations of the strategy, 
the National Strategy for Victory in Iraq and the New Way 
Forward. Can you tell us what is the priority of the 
development of the Iraqi security forces among those 
strategies?
    General Jones. I am sorry, could you restate the question 
again?
    Dr. Fenner. Sure. The development of the Iraqi security 
forces is a key, I think you would agree, in the versions of 
the strategy that have been made public. What priority is that 
at now? The reason I am asking the question is that, again, the 
Members are learning some things from the press, but we would 
like to get the Department's view rather than the view from the 
press to make sure we have the accurate one. There have been 
articles over time that this priority of development of the 
Iraqi security forces has shifted. At one point, we thought it 
was the number one priority. Then it seemed that that changed 
to be a subsidiary priority to establishing security. And now, 
in the paper again today, it looks like it may raise in 
priority again. And if there are documents that reflect this 
change in the priority of the ISF development, the subcommittee 
would probably value having that.
    General Jones. Okay. Thanks for clarifying. Sorry I didn't 
understand it first. I want to approach in terms of the overall 
strategy, just approach it in terms of military tasks. There 
was a signal change in terms of how we approach the military 
tasks prior to the strategy review that occurred last fall and 
winter. The main military tasks were to defeat the terrorists, 
to neutralize the insurgency, and to transition to Iraqi 
security self-reliance. We introduced a fourth military task as 
a result of the strategic review, and that is to assist the 
Iraqis in establishing population control. That military task 
is one of the reasons why the additional forces were required, 
to be able to do this additional task.
    So in terms of priority, right now, I believe in terms of 
General Petraeus's priority, assisting the Iraqis in 
establishing population control, especially in Baghdad, was the 
number one priority. And the reason for that is because the 
level of sectarian violence in our judgment had gotten to the 
point where it made the political and economic accommodation 
that needed to be reached to get toward national reconciliation 
impossible. So, militarily, we needed to assist the Iraqis in 
stopping this cycle of sectarian violence, which had in our 
view become self-sustaining. As that level of sectarian 
violence comes down and allows political accommodation to 
occur, we can then see a change in the security situation.
    To say, in terms of priority, although we made population 
security a priority, it did not diminish the training effort. 
And the reason it didn't is because the additional forces that 
were requested and provided to the multinational force allowed 
them to take on this military task, but at the same time 
continued to man the transition teams, continued to do the 
training and equip mission that MNSTC-I is responsible for.
    Dr. Fenner. Thank you.
    Mr. Meehan. And now, Roger Zakheim.
    Roger, did you have any questions?
    Mr. Zakheim. Thank you, Mr. Chairman.
    Just if you would clarify how the Baghdad security plan, if 
at all, has demonstrated the importance of the Iraq police 
services and what we have learned about them through the new 
operation and new strategy. To what extent are we capitalizing 
the on the Iraqi police services and the transition teams to 
effect security in Baghdad? And do we anticipate replicating 
that in other places? There has been little to no mention of 
the IPS today. Thank you.
    General Jones. The Iraqi police are an important part of 
the Baghdad security plan. And in fact, I believe the execution 
of the Baghdad plan is having a positive effect on the police. 
This is an Iraqi plan that is a little bit unique in that it is 
a joint MOI-MOD plan. The Prime Minister appointed a single 
person to be in charge of the Baghdad--this Baghdad operational 
command, that has inside it both Minister of Interior and 
Minister of Defense Forces. And that is commanded by Lieutenant 
General Abud. He designated commanders, one on the east side of 
the Tigris, one on the west side, one of which is an MOI major 
general, the other one is an MOD, a defense major general. Each 
of those has a deputy of the opposite ministry. They 
established joint security stations, where the Iraqi Army units 
and the police forces are co-located with their headquarters, 
where they plan and prepare to conduct operations in that 
Baghdad district that have caused a level of cooperation and 
working together between the police and the army that, at least 
in my experience, we have not seen before. It is kind of 
unprecedented, and probably not just since we have been there, 
but probably in the history of the country.
    So we have seen this cooperative effort between the two 
types of forces. And I think that what has happened, we know 
that the Iraqi army forces are more advanced in terms of their 
maturity than the police forces as a whole. And I think the 
joint operations of these two have actually caused an 
improvement in the conduct of the police out on the streets of 
Baghdad. So I think it has been beneficial, and I think we are 
seeing some positive results.
    The last thing is the rebluing effort of these national 
police units that are deployed into Baghdad, is we have taken 
those units out, done some retraining with them, and then, 
replacing the leadership and putting them back into the fight. 
For those units that have been through that process, the 
feedback that we have gotten is very positive. Their conduct, 
their reliability is much improved.
    Mr. Zakheim. Thank you.
    Mr. Meehan. Do any members have any other follow-up 
questions?
    Ms. Davis of California. Mr. Chairman? Could you just give 
us a general, maybe this is a ballpark number, but if our 
mission were solely to train the Iraqis and to provide backup 
support, what would that number be? Generally speaking?
    General Jones. Ma'am, I am sorry that I don't know. I have 
never broken it out that way because of the difficulty of 
trying to. You know, partnering units are also doing several 
things simultaneously. So all the units that are deployed doing 
security operations are also partnered with Iraqi units. And if 
you were going to have the same approach and you took out their 
other tactical requirements, maybe you could increase the 
number of units that a U.S. unit was partnered with or 
something that would change the numbers. But frankly, I haven't 
ever analyzed it from that perspective.
    Ms. Davis of California. Have you all done that in any way?
    General Jones. I am not aware that anybody has done that, 
mostly because I don't think that, given the security 
environment, anybody has looked at that as being a viable 
course of action. That for right now, in order for the Iraqi 
units to continue to develop to where they can become self-
reliant, we have to help them with forces doing operations to 
have a secure enough environment that they can continue to 
mature.
    Ms. Davis of California. Thank you.
    Mr. Meehan. Thank you, Mrs. Davis. I want to thank both Mr. 
Velz and General Jones for your testimony and cooperation here 
today. I guess you got a little bit caught in crossfire between 
disagreements that we have between the Department of Defense, 
but I really appreciate both of you being here. General Jones, 
in particular, I want to thank you and congratulate you for 
your outstanding service to our country and very much 
appreciate you being here.
    In answer to Dr. Snyder's question of whether I have been 
too courteous, too kind or too cooperative, my mother would 
agree that one could never be too courteous, too kind or too 
cooperative, but I appreciate you both being here. We said we 
would get you out, General, by 12. You are going to have an 
extra hour on your hands.
    But I want to remind committee members, we are going to 
have another subcommittee meeting on Thursday. The hearing will 
be in room 2212. We will hear from the Department of Defense 
and members of the police transition teams. So again, thank 
you, both of you.
    Mr. Akin. Mr. Chairman, just to mention Col. Reeves, we 
understand you have been also very helpful in providing us with 
some information. We want to thank you and General Jones for 
helping us with some of these different reports. It makes a 
difference. Thank you.
    Mr. Meehan. Thank you very much.
    [Whereupon, at 10:52 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                              May 22, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 22, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8110.006
    
    [GRAPHIC] [TIFF OMITTED] T8110.007
    
    [GRAPHIC] [TIFF OMITTED] T8110.003
    
    [GRAPHIC] [TIFF OMITTED] T8110.004
    
    [GRAPHIC] [TIFF OMITTED] T8110.005
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                              May 22, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MEEHAN

    Mr. Meehan. Please provide the classified casualty data collected 
by MNF-I.
    General Jones and Mr. Velz. [The information referred to is 
classified and retained in the committee files.]
    Mr. Meehan. Please provide the names, ranks, titles, and contact 
information for any person within CENTCOM and the Pentagon who is 
directly responsible for establishing policy, planning for, 
coordinating, monitoring, and reporting to the Chairman or Secretary on 
the following activities that fall within the purview of MNF-I (to 
include all subordinate organizations): a. Transition teams (all kinds, 
i.e. MiTTs, PTTs, NPTTs, BTTs, etc.) b. ISF development c. MOI and MOD 
progress.
    General Jones. The Commander of US Central Command, Admiral William 
J. Fallon, is responsible for establishing policy, planning for, 
coordinating, monitoring, and reporting to the Secretary of Defense on 
the issues listed above.
    Mr. Meehan. Please provide the names, ranks, titles, and contact 
information for any person within CENTCOM and the Pentagon who is 
directly responsible for establishing policy, planning for, 
coordinating, monitoring, and reporting to the Chairman or Secretary on 
the following activities that fall within the purview of MNF-I (to 
include all subordinate organizations): a. Transition teams (all kinds, 
i.e. MiTTs, PTTs, NPTTs, BTTs, etc.) b. ISF development c. MOI and MOD 
progress.
    Mr. Velz.

      <bullet> There are a considerable number of responsible parties 
that deal with the activities mentioned in the question. Many of these 
individuals change on a regular basis within the organizations listed 
below.
      <bullet> The Department of Defense is always pleased to respond 
to direct specific question to the appropriate office in response to a 
Congressional inquiry.
      <bullet> The Government of Iraq (GOI), through the Ministries of 
Defense (MOD) and Interior (MOI) and in consultation with the 
Commander, U.S. Central Command (CENTCOM) through the Commanding 
General, Multi-National Forces, Iraq (MNF-I) and the Commanding 
General, Multi-National Security Transition Command, Iraq (MNSTC-I), 
establishes policy and planning for the requirements for manpower and 
equipping the Iraqi Security Forces (ISF).
      <bullet> The Secretary of Defense evaluates the GOI established 
requirements and is responsible for development of policy, in 
consultation with the Department of State, to determine which GOI 
requirements the USG will support. Recommendations are solicited from 
MNSTC-I through MNF-I and CENTCOM. Within DoD, policy development is 
accomplished by the Office of the Under Secretary of Defense for 
Policy, International Security Affairs, Middle East.
      <bullet> The Department of Defense, through the Commander, U.S. 
Central Command is tasked under National Security Presidential 
Directive (NSPD) 36 with the responsibility to assist the GOI to man, 
train, and equip the Iraqi Security Forces in both the MOD and MOI. 
Responsibility for determining equipment and manpower requirements for 
execution of these tasks, including the size, composition and location 
of assignment, falls to the Commanding General, Multi-National Corps, 
Iraq (MNC-I), through MNF-I and CENTCOM, and is then adjudicated by the 
Joint Staff and the force providers. Once in the field, MNC-I 
coordinates transition team employment, and monitors and reports on the 
effectiveness of transition teams.
      <bullet> ISF development is the responsibility of the GOI in 
consultation with MNSTC-I through MNF-I. MNC-I transition teams conduct 
monthly Training and Readiness Assessments (TRA) for individual ISF 
units. MNSTC-I provides a collective monthly ISF assessment to the 
Department of Defense through MNF-I and CENTCOM. MNC-I feedback 
provides a resource to MNSTC-I to assist the GOI in identifying 
weakness in ISF training and equipping that can be considered as part 
of the future resourcing process.
      <bullet> Development of capacity of the MOD and MOI to sustain 
forces in the field falls to MNSTC-I. Capacity assessment is provided 
as part of the MNSTC-I monthly collective assessment.
    Mr. Meehan. Please outline what the planning process was for the 
development of the ISF, identifying specific planning documents, and 
indicate if this plan is still in effect.
    General Jones. [The information referred to is classified and 
retained in the committee files.]
    Mr. Meehan. Please outline what the planning process was for the 
development of the ISF, identifying specific planning documents, and 
indicate if this plan is still in effect.
    Mr. Velz. The ``plan'' for the development of the Iraqi Security 
Forces (ISF)--comprised of the Iraqi military and police forces--has 
undergone several evolutions. The main factors that have driven these 
revisions include changes in the threat conditions in Iraq, changes in 
assigned responsibilities for developing the ISF, and the ability and 
desire of the Iraqi government to determine end-state force structures. 
The current force structure plans, particularly for the Iraqi Army, 
reflect a substantial increase from the original plan.
    In 2003, the Coalition Provisional Authority (CPA) was responsible 
for funding the development of the police and military forces and for 
acting as the de facto command authority over these forces. It 
promulgated CPA Order 22, ``Creation of the New Iraqi Army'' to 
establish a new army for the defense of a free Iraq.
    Combined Joint Task Force-Seven (CJTF-7) units established a 
separate force, the Iraqi Civil Defense Corps (ICDC), pursuant to CPA 
Order 28 in September 2003, as a temporary institution to counter the 
continued attacks and acts of sabotage by Ba'athist remnants and 
terrorists intent on undermining security in Iraq. The end state number 
of ICDC battalions grew as CJTF-7 units' requirement for local security 
forces to assist with basic local security tasks grew.
    In early 2004, an assessment team recommended to the Secretary of 
Defense that the responsibility for training and equipping be unified 
under USCENTCOM. By June 2004, Multi-National Security Transition 
Command--Iraq (MNSTC-I) was established to unify these activities, a 
function it maintains today.
    After the dissolution of the CPA, National Security Presidential 
Directive (NSPD)-36, May 2004, delineated responsibility for training 
and equipping Iraqi forces. NSPD-36 assigns continued responsibility 
for Iraqi military and police forces to USCENTCOM and specifies that 
the Secretary of Defense and Secretary of State shall determine when to 
transition to traditional arrangements. MNSTC-I assumed this mission 
under USCENTCOM. Mergers of some forces and emergence of other forces 
have occurred since 2003, and the end state force structures have grown 
substantially.

Police Forces

    Initial plans for the numbers of Iraqi police were based on a CPA 
assessment done in 2003. Based on input from Major Subordinate Commands 
under CJTF-7, force levels required to help maintain local control were 
developed. At the end of 2003, the target number of Iraqi police 
increased from about 25,000 to about 60,000. In early 2004, the CPA 
estimated that 90,000 police would be necessary (based upon 27 million 
Iraqi citizens). It was subsequently determined that more police were 
necessary; MNSTC-I and Iraqi leaders agreed on a nationwide target of 1 
police for every 200 citizens, resulting in an Objective Civil Security 
Force that included 135,000 police.
    In late 2004, the MoI established the Police Commandos under the 
command and control of the Minister of Interior to conduct paramilitary 
counterinsurgency operations as the threat environment intensified. 
Initially, there was no MNSTC-I involvement with this force. However, 
once there were indications that the Police Commandos were having some 
early success in fighting insurgents, MNSTC-I became involved in 
training and equipping them and in working with the MoI on force 
planning.
    In 2006, the Commandos were re-designated as the National Police, 
and a program of re-training and re-vetting was undertaken in late 2006 
to reform them due to their growing reputation for human rights 
violations. This program is ongoing, and some top commanders have been 
replaced.

Military Forces

    In May 2003, CPA Order 2, ``Dissolution of Entities,'' abolished 
the Iraqi Ministry of Defense, all related national security ministries 
and offices, and all military formations, including the Republican 
Guard, Special Republican Guard, Ba'ath Party Militia, and the Fedayeen 
Saddam. CPA advisors then began to plan the new Ministry of Defense and 
the New Iraqi Army. Consultations with tribal leaders were held to 
begin to recruit new volunteers, and surveys of destroyed Iraqi Army 
bases were undertaken to identify basing locations. The New Iraqi Army 
force structure was envisioned as a three-division Army focused on 
territorial defense with its logistics support coming from other 
ministries in the Iraqi government.
    At the same time, CJTF-7 determined it required one battalion of 
local forces per province to help deal with internal security threats, 
resulting in establishment of the ICDC. Over the next year, a series of 
adjustments resulted in the ICDC end-strength culminating in a 
strategic review undertaken in mid-2004 by the CG, MNSTC-I and U.S. 
Chief of Mission that expanded the end-strength to 62 battalions. The 
Ministry of Defense redesignated the ICDC as the Iraqi National Guard 
(ING). The strategic review resulted in shifting $1.8 billion in Iraq 
Reconstruction and Relief Funds from water and sanitation and other 
reconstruction projects into the security sector to fund this force 
structure growth. Additionally, several brigades were added to the Army 
force structure as a result of Iraqi government initiatives.
    In early 2005, the Iraqi government decided to merge the ING into 
the Iraqi Army and changed the Army end state to nine light infantry 
divisions and one mechanized division. Upon completion of training of 
the basic combat force structure in December 2006, MNSTC-I transitioned 
basic recruit training to the Iraqis and shifted focus to development 
of enablers required to sustain the Iraqi force.
    In 2006, Prime Minister Maliki decided to increase the size of the 
Army from ten to twelve divisions, mainly by cross-leveling among 
divisions and implementating of a replenishment program to replace 
forces no longer in the force due to combat losses or other departures 
from the service. The plan also included increasing manning 
authorizations 10 percent for all ten divisions, to boost present-for-
duty unit strength.
    In 2007, Prime Minister Maliki decided to increase the authorized 
strength of divisions so that authorized strength is now 120 percent of 
what it was at the beginning of 2006.
    Currently, a rapid expansion of the Iraqi Army training capacity is 
in progress to meet future growth required to build a more robust 
national armed force from 2008 through 2010. The training base will 
expand rapidly at three locations to increase capacity. Divisions will 
grow quantitatively, and additional force structure is being added to 
support them.
    The Iraq Navy (IqN) has a current force structure of 212 officers 
and 1,050 enlisted sailors including a small naval infantry unit. The 
current force structure is derived from naval base reconstruction 
limitations at Umm Qasr, embryonic fleet development, and the small 
operational requirements. ``Right sizing'' the force is dependent on 
new ship procurement, infrastructure improvements, increasing 
operational capability, and threat analysis. IqN is projected to grow 
to roughly 2,400 personnel by 2011. Larger recruitment increases are 
expected when new ship deliveries and barracks construction at Umm Qasr 
are complete.
    The Iraqi Air Force consists of small reconnaissance aircraft and 
retired C-130 aircraft transferred from the U.S. Air Force. 
Additionally, helicopters have been donated by Jordan, and the United 
States is considering the transfer of additional helicopters. A long-
range plan has been developed by the GOI, assisted by MNSTC-I.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ANDREWS
    Mr. Andrews. For the last month for which you have available data, 
how many attacks were launched by the resistance or counterinsurgency 
in Iraq?
    Mr. Velz. [The information referred to is classified and retained 
in the committee files.]
    Mr. Andrews. How many attacks were there in April of 2007?
    General Jones. [The information referred to is classified and 
retained in the committee files.]
    Mr. Andrews. Could you give the committee a classified document 
that breaks the attacks down by the target of the attacks?
    General Jones. [The information referred to is classified and 
retained in the committee files.]

                                  <all>

</pre></body></html>
